App. 5
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988
TELEPHONE (513) 564-7000
www.ca6uscourts.gov
DEBORAH S. HUNT, Clerk
Filed: April 14, 2015
Ms. Gracie E. McBroom
636 Koebel Avenue
Columbus, Ohio 43207
Re: Case No. 14-3176, Gracie McBroom v. HR Director
Franklin County - Originating Case No. : 2:12-cv-01074
Dear Ms. McBroom:
The Court issued the enclosed Order today in this case.
Sincerely yours,
“sr

Karen S. Fultz for Jill Colyer
Case Manager
Direct Dial No. 513-564-7094
Cc: Mr. Richard W. Nagel
Mr. Jeffrey Charles Rogers
Enclosure

App. 6
No. 14-3176
FILED, APRIL 14,2015
DEBORAH S. HUNT, Clerk
UNITED STATES COURT OF APPEALS FOR
THE SIXTH CIRCUIT
ORDER
GRACIE E. MCBROOM,
Plaintiff-Appellant
v.
HR DIRECTOR FRANKLIN COUNTY
BOARD OF ELECTIONS
Defendant-Appellee.
Before: BATCHELDER, GIBBONS, and ROGERS,
Circuit Judges,
Gracie E. McBroom, an Ohio citizen, has filed a
petition for rehearing of this court’s order of January
21, 2015, affirming the judgment for defendant in a
Title VII action she filed.
Upon consideration, this panel concludes that it did
not misapprehend or overlook any point of law or fact when
it issued its order. Fed. R. App. P. 40(a).
The petition for rehearing is therefore denied.

ENTERED BY ORDER OF THE COURT
“s/

Deborah S. Hunt, Clerk

App. 7
No. 13-3176
FILED, APRIL 22,2015
DEBORAH S. HUNT, Clerk
UNITED STATES COURT OF APPEALS FOR
THE SIXTH CIRCUIT
GRACIE E. MCBROOM
Plaintiff-App ellant,
v.
HR DIRECTOR FRANKLIN COUNTY BOARD OF
ELECTIONS
Defendant-Appellee.
MANDATE
Pursuant to the court’s disposition that was filed
01/21/2015 the mandate for this case issues today.
COSTS: NONE

App. 8
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988
TELEPHONE (513) 564-7000
DEBORAH S. HUNT, Clerk
October 4, 2018
Grade E. McBroom
636 Koebel Avenue
Columbus, Ohio 43207
Re: Materials Received in this Court
Dear Ms. McBroom,
This office received on October 1, 2018 your box of
materials directed to Chief Judge Cole. The box contained four
bound volumes. Two of those volumes are letters to the Chief
Judge and two of them are appendix volumes. These
documents were referred to me for review.
In one letter, you appear to challenge certain holdings made
by the district court in McBroom v. HR Director Franklin
County Board ofElections, No. 2:12-CV-01074 (S.D. Ohio),
In the appellate proceeding, this court affirmed and denied
rehearing. The United States Supreme Court denied your
petition for a writ of certiorari. This court issued a mandate in
April 2015, and the case is closed.
In the other letter, you discuss another case, McBroom v.
Bankers Life and Casualty Company, No. 2:14-cv-00838 (S.D.
Ohio), which was appealed to this court in No. 15-4186. The
mandate issued in 2017, and that case is closed.
You mention Rule 60(b) in your letters and allege “fraud on
the court.” The Federal Rules of Civil Procedure generally
apply to the district court proceedings, where Rule 60 (b)
motions are normally filed. Given that both 14-3176 and 154186 are closed, your papers are being returned to you unfiled.
Sincerely,
“s/ Susan Rogers, Chief Deputy Clerk

App. 9
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988
TELEPHONE (513) 564-7000
DEBORAH S. HUNT, Clerk
November 2, 2016
Gracie E. McBroom
636 Koebel Avenue
Columbus, Ohio 43207
Re: Case No. 14-3176, McBroom v. HR Director Franklin
County Board of Elections; Correspondence Dated October 27,
2016
Dear Ms. McBroom:
Your letter addressed to Chief Judge Cole was referred to
me for review and response; judges of this court typically do
not correspond directly with litigants. It appears from a review
of your letter that you request this court issue an extraordinary
writ related to your prior appeal, Case No. 14-3176. The
docket in that case reflects that a three-judge panel of this court
affirmed the grant of summary judgment for the defendant in
an order dated January 21,2015. The paneTsubsequently
denied your motion for panel rehearing, and the mandate
issued April 22, 2015. The case is now closed, and you should
generally expect that no further correspondence will be
accepted. As such, please find your letter returned unfiled and
without ruling.
Sincerely,
“s/

Susan Rogers
Chief Deputy Clerk

App. 10
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988
TELEPHONE (513) 564-7000
DEBORAH S. HUNT,
Clerk
December 4, 2018
Grade E. McBroom
636 Koebel Ave.
Columbus, Ohio 43207
Re: Documents Received
Dear Ms. McBroom
A “Motion for Relief from Judgment or Order” was
received in this court that refers to McBroom v. HR
Director Franklin County Board of Elections, and that
carries the case number 14-3176. That case is closed,
and the mandate has issued.
Further, the documents that you sent appear to
duplicate
a Rule 60 (b) motion that you filed in the district court
in the underlying action. They are returned to you
unfiled and without further action.
Sincerely,
“s r

Susan Rogers
Chief Deputy Clerk

App. 11
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988
TELEPHONE (513) 564-7000
DEBORAH S. HUNT, Clerk

January 28, 2019
Grade E. McBroom
636 Koebel Avenue
Columbus, Ohio 43207
Re: McBroom v. Bankers Life and Casualty Co.,
No. 15-4186 and,
McBroom v. HR Director Franklin County
Board of Elections, No. 14-3176
Dear Ms. McBroom,
Today I received a telephone call from you asking for
confirmation regarding the above case. This letter is to confirm
that this appeal was closed in June 2017.
In October 2018, we returned to you unfiled two volumes of
documents. In November 2018, we received a copy of the motion
for relief from judgment that you filed in the district court. The
district court denied your motion in an order entered on
November 20, 2018. You did not appeal that order. As a result,
you have no pending or active appeal in this court. Both of your
appeals - 14-3176 and 15-4186 - are closed. There will be no
further action on either case.
Sincerely,
“s7”

Susan Rogers
Chief Deputy Clerk

APPENDIX B

App. 12
Motions
2:12-cv-01074-ALM-NMK
McBroom v. HR Director Franklin
County Board of Elections et al
CASE CLOSED ON 01/10/2014
ADR-CLOSED, JURY
U.S. District Court
Southern District Court
Notice of Electronic Filing
The following transaction was entered on 10/26/2018 at 5:03 PM
EDT and filed on 10/25/2018
Case Name: McBroom v. HR Director Franklin County Board of
Elections et al
Case Number: 2:12-cv-01074-ALM-NMK
Gracie E. McBroom
Filer:
WARNING: CASE CLOSED ON 01/10/2014
Document Number: 71
Docket Text:
MOTION Relief from Judgment or Order by Plaintiff Gracie E.
McBroom. (Attachments: # (1) Exhibit, # (2) Exhibit, (3)
Exhibit, # (4) Exhibit, # (5) Exhibit) (Jlk)
2:12-cv-01074-ALM-NMK Notice has been electronically mailed
to:
Scott J. Gaugler si gaugle@franklincountvohio.gov
Jeffrey Charles Rogers i rogers@franklincountvohio. gov
2:12-CV-01074-ALM-NMK Notice has been delivered by other
means to:
Gracie-E.-McBroom—
636 Koebel Avenue
Columbus, Ohio 43207

App. 13
Case: 2:12-cv-01074-ALM-NMK Doc #:6 Filed: 11/21/12
Page: 1 of 6 PAGEID 3#: 579
AO 440 (Rev. 12/09 Summons in a Civil
Action
UNITED STATES DISTRICT COURT
For the
For the Southern District of Ohio
Gracie E. McBroom in Pro Se
Plaintiff,
Civil Action No. 2:12- cv-1074
v.
Franklin County Board of Elections
Defendant.
SUMMONS IN A CIVIL ACTION
To: (Defendant’s name and address)
Assistant Prosecuting Attorney
373 South High Street, 13* Floor
Columbus, Ohio 43215
A lawsuit has been filed against you
Within 21 days after service of this summons on
you (not counting the day you received it - or 60 days
if you are the United States agency, or an officer or
employee of the United States described in Fed. R.
Civ. P. 12 (a)(2) or (3) - you must serve on the
Plaintiff an answer to the attached complaint or a
motion under Rule 12 of the Federal Rules of Civil
Procedure. The answer or motion must be served on
the Plaintiff or Plaintiff’s attorney, whose name and
address are:
Gracie E. McBroom
636 Koebel Avenue
Columbus, Ohio 43207

App. 14
If you fail to respond, judgment by default will be
entered against you for the relief demanded in the
Complaint. You also must file your answer or motion
with the court.
CLERK OF COURT
Date: 11/21/12
miiFcotm

... '

roymrax {„»„}

.y

1

’V;

oh mcmbt
.**•

Wfm

W&Mi

X■

T

gr

*-■.

■i

iv.i■

iV V

... -'vl.

“ACKNOWLEDGMENT OF RECEIPT
RECEIVED NOVEMBER 26, 2012”

<•

/

App. 15

PROCESS RECEIPT AND RETURN
U.S. Department of Justice
U.S. Department Marshals Service
PLAINTIFF
Gracie E. McBroom in Pro Se
DEFENDANT
Franklin County Board of Elections
SERVE NAME OF INDIVIDUAL COMPANY
CORPORATION ETC. TO SERVE OR DESCRIPTION OF
PROPERTY TO SEIZE OR CONDEMN
HR Director Franklin County Board of Elections
280 E. Broad Street, Rm 100, Columbus, Ohio 43215
SEND NOTICE OF SERVICE COPY AT NAME AND
ADDRESS BELOW
Ms. Gracie E. McBroom
636 Koebel Avenue
Columbus, Ohio 43207
SPECIAL INSTRUCTIONS OR OTHER INFORMATION
THAT WILL ASSIST IN EXPEDITING SERVICE
Signature of Attorney or other Originator requesting
service on behalf of “s/Gracie E. McBroom
SPACE BELOW FOR USE OF U.S. MARSHALL ONLY
DO NOT WRITE BELOW THIS LINE
. .. Signature of Authorize USMS Deputy or Clerk
“s/ Dillin Date: 12/03/2012
Name and title of individual served (if not shown above)
David Magers, Franklin Co. Board of Elections, HR Dept.
Date of Service 2/7/2012 Signature of U.S. Marshall or
Deputy “s/__________
Dillin

App. 16
Case: 2:12-cv-01074-ALM-NMKDoc#: 12 Filed:
02/14/13 Page: 1 of 2 PAGEID 608
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
GRACIE E. MCBROOM,

Civil Action 2:12-cv-1074

Plaintiff,
v.

Judge Marbley
Magistrate Judge King

HR DIRECTOR FRANKLIN COUNTY
BOARD OF ELECTIONS,
Defendant.
ORDER
Plaintiff, who is proceeding in forma pauperis without
the of counsel, brings this civil action alleging that she
was removed as an election official on account of her race
and color. Named as defendants are “HR Director
Franklin County Board of Elections and Scott J. Gaugler,
a Franklin County Assistant Prosecuting Attorney. The
claims against the Franklin County Assistant
Prosecuting Attorney were dismissed on December 4,
2012. Order Doc. No. 10.
Service of process was apparently affected on defendant
HR Director Franklin County Board of Elections on
December 7, 2012. See Marshals Process Sheet and
Return, Doc. No. 11, p. 6 (“I served the summons on . . .
DAVID MAGERS, who is designated by law to accept
service of process on behalf of. . . FRANKLIN CO.
BOARD_________________ _____ ________________ ___
OF ELECTIONS, H.R. DEPT., 12/7/2012.”)
This defendant was granted 45 days after service of
process to respond to the Complaint. Order, Doc. No. 7, p.
2.

App. 17
The time for responding has passed with no appearance
on behalf of or response to the Complaint by the
remaining defendant.
Defendant HR Director Franklin County Board of
Elections is therefore ORDERED to report on the status of
this case within fourteen (14) days.
The Clerk is DIRECTED to provide a copy of this Order
to all named parties and to the Franklin County
Prosecutor, at 373 South High Street, 14th Floor, Columbus,
Ohio 43215.
February 14, 2013
/” s’7

Norah McCann King
United States Magistrate Judge

App. 18
Case: 2:12-cv-01074-ALM-NMKDoc#: 15 filed: 03.04/13
Page: 1 of 1 PAGEID # 625
THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Civil Action 2:12-cv-1074
Judge Marbley
Magistrate Judge King

GRACIE E. MCBROOM,
Plaintiff,
vs.

HR DIRECTOR FRANKLIN COUNTY
BOARD OF ELECTIONS,
Defendant.
ORDER
Upon motion, Doc. No 14, defendant HR Director
Franklin County Board of Elections is GRANTED leave
to file answer instanter.
The Clerk is DIRECTED to file the Answer, which is
attached to the motion.
March 4, 2013
“s/

Norah McCann King
United States Magistrate Judge

App. 19
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
www.ohsd.uscourts.gov

John P. Hehman, Clerk of Court
Potter Stewart U.S. Courthouse Joseph P. Kinneary U.S.
Courthouse
100 East Fifth Street
85 Marconi Boulevard
Cincinnati, OH
Columbus, OH 43215
513-564-7500
Federal Building
200 West Second Street
Dayton, OH 45402
937-512-1400
Gracie E. McBroom
636 Koebel Ave
Columbus, OH 43207
Re: McBroom v. HR Director Franklin County Board of
Elections
Dear Ms. McBroom:
Enclosed please find the document you requested per our
phone conversation. The document was #41 on the docket.
The Response in Opposition re 33 MOTION [Defendant]
Franklin County Memorandum Contra and Motion to
Dismiss filed by [Defendant] HR Director Franklin County
Board of Elections, which was filed by s/ Scott Gaugler on
6/10/13.
Sincerely,
“ sr

App. 20
Case: 2:12-cv-01074-ALM-NMKDoc#: 22 Filed: 03/21/13
Page: 1 of 2 PAGEID #: 680
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
GRACIE E. MCBROOM,
Plaintiff,
vs.

Civil Action 2:12-cv-1074
Magistrate Judge King

HR DIRECTOR FRANKLIN COUNTY
BOARD OF ELECTIONS,
Defendant.
ORDER
Plaintiff, who is proceeding in forma pauperis without the
assistance of counsel, has filed a Motion for Recusal, Doc.
No. 21. Plaintiff bases her motion on the Court’s
“refusa[al] to act on the Default Judgment by already
arriving at an unfair conclusion about Plaintiffs case” and
in striking Plaintiffs Answer of Defendant Franklin
County Board of Elections to Plaintiffs Complaint, Doc.
No. 18. See Motion for Recusal, pp. 2-3.
Federal law requires a federal judicial officer to
“disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.” 28 U.S.C. §
455 (a). The bias or prejudice that mandates recusal,
however, must be wrongful or inappropriate, i.e., either
relying on knowledge acquired outside the proceedings or
displaying deep-seated and unequivocal antagonism that
would render fair judgment impossible. Liteky v. United
States, 510 U.S. 540 (1994). In this regard, judicial
-rulings-a 1 one.almost-neyer.constitute a basis for recusal.
Id.; United States v. Grinnell Corp., 384 U.S. 563, 583
(1966).
First, Plaintiffs argument that the Court has failed “to
act on the Default Judgment” is without merit. Plaintiffs
Motion for default iudement. Doc. No. 19. was filed on

App. 21
Case: 2:12-cv-01074-ALM-NMK Doc #: 22 Filed: 02/21/13
Page: 2 of 2 PAGEID #: 681
That motion is not fully briefed, see S.D. Ohio Civ. R. 7. 2
(a) (2) (permitting a memorandum in opposition to be
served within twenty-one (21 days from the date of service
of a motion), and a delay in ruling on the motion does not
suggest any bias on behalf of the Court.
Second, Plaintiffs argument is based on a judicial
ruling that simply does not manifest bias against any
party in this action. The Court ordered Plaintiffs Answer
to Defendant’s Answer of Defendant Franklin County
Board of Elections to Plaintiffs Complaint, Doc. No. 18,
stricken from the record because the “[t]he Federal Rules
of Civil Procedure do not. . . permit a response to an
answer.” Order, Doc. No. 20 (citing Fed. R. Civ. P. 7 (a)).
The Court’s reference to and application of the Federal
Rules of Civil Procedure do not suggest any bias on behalf
of the Court.
Accordingly, as it relates to the undersigned, Plaintiff’s
Motion for Recusal, Doc. No. 21, is DENIED.
March 18, 2013
“ sr

Norah McCann King
United States Magistrate Judge

App. 22
U.S District Court
Southern District of Ohio
Notice of Electronic Filing
The following transaction was entered on 1/10/14 at 1:52
PM EST and filed on 1/10/2014
Case Name: McBroom v. HR Director Franklin
County Board of Elections et al
Case Number: 2:12-cv-01074-ALM-NMK
Filer:
Document Number: 59
Docket Text:
ORDER granting [41] Motion to Dismiss; denying [55]
motion for status conference; denying [56] Motion for
Judgment on the Pleadings; denying [19] motion for
Default; denying [33] Motion opposing summary
judgment. This action is hereby DISMISSED. Signed
by Algenon L. Marbley on 1/10/24 (cw)
2:12-cv-01074-ALM-NMK. Notice has been
electronically mailed to:
Scott J. Gaugler si augler@fr anklin countvohio.. gov
Jeffrey Charles Rogers irogers@franklincountvohio. gov
2:12-cv-01074-ALM0-NMK. Notice has been delivered by
other means to: Gracie E. McBroom, 636 Koebel Avenue,
Columbus, Ohio 43207. The following document(s) are
associated with this transaction
Document description: Main Document
Original filename: n/a
Electronic document Stamp:

[10353c424bl4cdd4fe0f8044d3acl717a6a334b726ff36ecl49
bd608166b4e327bbe4
07f3c44073806195563558907ae2bcfc768118727cdc3e7fee6d
1098F6144]]
---------

App. 23

Motions
2:12-cv-01074-ALM-NMK
McBroom v. HR Director Franklin
County Board of Elections et al
CASE CLOSED on 01/10/24
ADR

CLOSED, JURY
U.S. District Court
Southern District of Ohio

Notice of Electronic Filing
The following transaction was entered on 10/26/2018 at
5:03 PM EDT and filed on 10/25/2018
Case Number: McBroom v. HR Director Franklin County
Board of Elections et al
Case Number: 2:12-cv-74-ALM-NMK
Gracie E. McBroom
Filer:
WARNING: CASE CLOSED on 01/10/2014
Document Number: 71
Docket Text:
MOTION Relief from Judgment or Order by Plaintiff
Gracie E. McBroom. (Attachments: # (1) Exhibit, # (2)
Exhibit, # (3) Exhibit, # (4) Exhibit, # (5) Exhibit) (jlk)
2:12-cv-01074-ALM-NMK Notice has been
electronically mailed to:
Scott J. Gaugler sigaugle@fr anklincountvohio.gov
Jeffrey Charles Rogers icrogers@franklincountvohio.gov
2:120-CV-01074-alm-nmk Notice has been
electronically delivered by other means to:

App. 24
Grade E. McBroom
636 Koebel Avenue
Columbus, Ohio 43207
The following document(s) are assodated with this
transaction:
Document description: Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP DCECF[Stamp - ID=1040326259
[Date=10/26/2018] File Number=63715910]3df3fafaecl9467e201elb5b429f70aa3148a7e43fdd2531afc
df4cd9e671591987dbc4d5bba0a8037963565a0d80ca69cec4356blfl8360036
ff!90c734b8e]] ...

App.25
Case: 2:12-cv-01074-ALM-NMK Doc #: 64 Filed: 02/24/14 Page: 1
of 1 PAGEID #: 1273
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Civil Action 2:12-cv-1074
Judge Marbley
Magistrate Judge King

GRACIE E. MCBROOM,
Plaintiff,
vs.

HR DIRECTOR FRANKLIN COUNTY
BOARD OF ELECTIONS,
Defendant.
ORDER
Plaintiffs motion for leave to proceed on appeal in forma
pauperis, ECF 63, is GRANTED. All judicial officers who
render services in this action shall do so as if the costs had
been prepaid.
February 24, 2014
“sr
Norah McCann King
United States Magistrate Judge

App. 26
Case: 2:12-cv-01074-ALM-NMK Doc #: 60 Filed
01/10/14 PAGEID #1255
**AO (Rev. 5/85) Judgment in a Civil Case
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
AMENDED JUDGMENT IN
CIVIL CASE
GRACIE E. MCBROOM,
Case No. 2:12-cv-01074
Plaintiff,
v.

Judge Algenon L. Marbley
Magistrate Judge King

HR DIRECTOR FRANKLIN
COUNTY BOARD OF ELECTIONS
Defendant.
[] Jury Verdict This action came before the Court for
a trial by Jury. The issues have been tried and the
jury has rendered its verdict.
[] Decision by Court. This action came to trial or
hearing before the Court. The issues have been tried
or heard and a decision has been rendered.
[X] Decision by Court. This action was decided by the
Court without a trial or hearing.
IT IS ORDERED AND ADJUDGED that pursuant
to January 10, 2014 Opinion and Order (Doc. 59), the
Court GRANTED Defendant’s Motion to Dismiss (Doc.
41).
This case is hereby DISMISSED in it’s entirety.
Date: January 10, 2014
John Hehman, Clerk
“s/

Betty L. Clark
Deputy Clerk

App. 27
CM/ECF-U.S. District Court: OHSD
https//ecrf.circ6.dcn/cgi/Dispatch. 26610211052174pl?
Orders on Motions
2:12-cv-ALM-NMK
McBroom v. HR Director Franklin
County Board of Elections
ADR - JURY
U. S. District Court
Southern District of Ohio
Notice of Electronic Filing
The following transaction was entered on 1/10/2014 at
1:52 PM EST and filed on 1/10/2014
Case Name: McBroom v. HR Director Franklin
County Board of Elections et al
2:12-cv-01074-ALM-NMK
Case Number:
Filer:
Document Number: 59
Docket Text:
ORDER granting [41] Motion to Dismiss; denying [55]
Motion for a status conference; denying [56] Motion
for Judgment on the Pleadings; denying [19] Motion
for Default; denying [33] Motion opposing summary
judgment. This action is hereby DISMISSED. Signed by
Algenon L. Marbley on 1/10/2014. (cw)
2:12-cv-01074-ALM-NMK. Notice has been
electronically mailed to:
Scott J. Gaugler siaugle@fr ankincountvohio.gov
Jeffrey Charles Rogers
icrogers@franklincountvohio.gov

App. 28
2:12-cv-01074-ALM-NMK Notice has been delivered by
other mean to: Gracie E. McBroom, 636 Koebel Avenue,
Columbus, Ohio 43207. The following document(s) are
associated with this transaction

Document description: Main Document
Original filename: n/a
Electronic document Stamp:
[STAMP deecfStamp_ID=1040326259
[Date=l/10/2014]
[FileNumber=4276811-0]
[10353c424bl4cdd4fe0f8044d3acl717a6a334b726ff36e
cl49
bd608166b4e327bbe4
07f3c44073806195563558907ae2bcfc768118727cdc3e7f
ee6d
1098b6144]]

App. 29
Case 212-cv-01074-ALM-NMK Doc #: 59 Filed: 01/10/14/
Page: 1 Of 10 PAGEID # 1245
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
GRACIE E. MCBROOM,
Plaintiff,

Case No.
2:12-CV-01074
JUDGE ALGENON L.
v.
MARBLEY
Magistrate Judge King
HR DIRECTOR FRANKLIN
COUNTY BOARD OF ELECTIONS, et al.
Defendants.
OPINION & ORDER

I.
INTRODUCTION
This matter is before the Court on Plaintiffs
“Motion for Judgment on the Pleadings or, in the
alternative, Motion for Summary Judgment,” (Doc. 33
and Defendant’s Response and Motion to Dismiss (Doc.
41) Pro Se Plaintiff, Gracie McBroom, brings this
action for alleged employment discrimination arising
from her work as a Precinct Judge with the Franklin
County Board of Elections. Plaintiff ask the Court to
deny an anticipated motion for summary judgment,
which Defendant subsequently filed, but captioned as
a “Motion to Dismiss” (Doc. 41). In addition, Plaintiff
moves for default judgment (Doc 19), based on
Defendant’s late Answer, and for a status conference
(Doc. 55). Plaintiff also renews her anticipatory
opposition to summary judgment by re-filing a readyidentical Motion (Doc. 56).
For the reasons set forth herein, Plaintiff s Motion
for Default Judgment (Doc. 19) is DENIED. Plaintiffs

App. 30
Plaintiffs Motion for Judgment on the Pleadings or, in
the alternative, Motion for Summary Judgment on the
Pleadings or, in the alternative Motion for Summary
Judgment”
Case: 2:12-CV-01074-ALM-nmk doc #: 59 Filed
01/10/13 Page 2 of 10 PAGEDID #1246
( 33 & 56) is DENIED and Defendant’s Response and
Plaintiff
Motion to Dismiss (Doc. 41 is GRANTED,
filed this action on November 21, 2012
against Attorney Scott J. Gaugler and the HR Director
for the Franklin County Board of Elections. (Doc. 5).
On the same day, the Magistrate Judge issued a Report
and Recommendation, recommending dismissal of the
claims against Defendant Gaugler (Doc. 7). Which the
Court adopted on December 4, 2012 (Doc. 10).
When Defendant HR Director failed to answer in the
allotted 45 days, the Magistrate Judge on February 14,
2013, ordered Defendant to report on the status of the
case (Doc. 12). Defendant did so, on February 28 (Doc.
13), and moved the next day for an extension of time in
file his Answer (Doc. 14). The Court granted this
extension (Doc. 15), and Defendant filed his Answer on
March 4 (Doc. 16). Nevertheless, Plaintiff moved for
default judgment on March 13 (Doc. 19). That Motion
remains pending before the Court.
On May 15, 2013, after several unsuccessful attempts
to force the recusal of the Magistrate Judge, Plaintiff
filed the pendant “Motion for Judgment on the Pleading
or, in the alternative, Motion for Summary Judgment”
(Doc. 33). That Motion anticipates that Defendant will
file a motion for summary judgment, and argues that it
should be denied. It does not argue for judgment on the
pleadings, nor does it argue for summary judgment in
Plaintiffs favor. On June 6, Defendant responded, and
movedfor summary judgment (Dbc~4)~
Subsequently, Plaintiff filed the following motions:
to produce documents (Doc. 45); to amend her motion for
default judgment (Doc. 46); for sanctions (Doc. 47;) to
compel (Doc. 48); to produce documents (Doc. 49); for

App.31
leave to file a late response to Defendant’s Motion to
Dismiss (Doc. 50); to amend (Doc. 51); and “for
annulment of judgment” on Defendant’s motion to
dismiss (Doc. 52). The Court denied all of these Motions
on August 9, 2013 (Doc. 53).
Case: 2:12-cv-01074-ALM-NMK Doc. # 59 Filed:
01/10/14 Page: 3 of 10 PAGEID # 1247
In response to the Magistrate Judge’s denial of her
various motions, Plaintiff moved for a status conference,
on August 22 (Doc. 55. Plaintiff then repeated her
opposition to summary judgment; by filing a document
nearly identical to her original Motion on August 23
(Doc 56). The motion for status conference, as well as the
renewed Motion (to extent it differs from the original) also
remains pending before the Court.
III STATEMENT OF FACTS
Plaintiff brings her claim for workplace
discrimination under U.S.C. §2000e-5(f) (1). Plaintiff has
worked as a voting official for Defendant since 1981,
including as a precinct judge in 1992 and 1993. (Complaint,
Doc. 5, at 10).
Plaintiff was demoted from her precinct judge role for the
1994 election. (Id. At 10-11). In response, Plaintiff filed a
civil rights complaint, which was dismissed by
the Court of Pleas on September 29,, 1995, and the
dismissal was affirmed by the Court of Appeals on June
20, 1996 (Id. At 11).
#f# After this incident, Plaintiff continued to work with the
Board of Elections, and served as a judge in 2000 and 2002,
and a roster judge in 2003, and presiding judge in 2004
and 2006) (Doc. 5-1 at 3). Plaintiff also worked in the 2010
and 2011 elections (Doc 5 at 5).
With case, Plaintiff alleges that on December 23, 2011,
Mary Hackett, the Precinct Election Official Manager, and
Deborah Cotner. Precinct Election Official Coordinator,

App. 32
argues that Hawkins is “far less” qualified than Plaintiff,
and that Plaintiff was removed because of her “race and
color “(Id.3). Plaintiff acknowledges that Defendant
informed her that she had failed her performance tests
and that Defendant “wanted someone with [a] better skill
set than Plaintiff,” but Plaintiff disputes that she has
failed any required test, and argues that her work in the
2010 and 2011 elections demonstrates her capability. (Id)
Plaintiff asserts that she was never informed of any
problem with her skills or performance.
(Id. At 8). In addition, Plaintiff alleges that she was
replaced as precinct judge “in retaliation for” her 1995
civil right complaint (ID. At 9).
Case: 2:12-cv-01074-ALM-NMK Doc #: 59 Filed:
01/10/14 Page: 4 Of 10 PAGEID # 1248
In support of her allegations, Plaintiff asserts that she
was unaware that Ms. Hawkins was being prepared as
her replacement, even as she trained Ms. Hawkins in the
responsibilities of a presiding judge. (Doc. 5-1 at 3-4, 7).
Plaintiff argues that Ms. Hawkins was unqualified for the
position of presiding judge, and that she only could have
been given the job by means of improper racial preference.
(ID. AT 8).
Plaintiff also takes issue with the performance
problems cited by her supervisors at the Election Board.
During the 2011 election, certain Elections Board officials
reported that Plaintiff was late to arrive to the polling site
on the day of the 2011 elections (Id. At 4). Plaintiff
disputes that she was late, and argues that this could not
have been the case, since the back-up procedure intended
to be followed if the presiding judge is later were never
put into action (Id). Plaintiff also recounts that elections
official complained of her sleeping on the job, which she
denies (Id. At 5). Several other accounts state that
Plaintiff Had a “difficult time” working as aTpresiding
judge, and that she seemed overwhelmed and unable to
manage the polling station (Id. At 10-13). On the other
hand, Plaintiff cites several Election workers who
reported no issues with her performance (Id. at 8-9).

App.33
On January 10, 2013, Plaintiff filed a complaint with
the Ohio Civil Rights Commission (“OCRC) alleging
substantially the same facts as described here (Doc. 5 at
5; Doc. 5-1 at 14).
Plaintiff also filed charges with the United States Equal
Opportunity Employment Commission (“EEOC”) (Doc. 5-1
at 14). The EEOC declined to proceed on the grounds that
no employee relationship existed between Plaintiff and
Defendant (Doc. 5 at 4). Plaintiff received her EEOC
“right to sue” letter on September 4, 2012 (Id.).
Plaintiff filed suit on November 20, 2012, asserting
claims for civil rights violations. Plaintiff seeks
reinstatement, new supervisors and back pay. See also
request $7,000,000 in punitive and compensatory
damages (Doc. 5 at 3).
IV. LEGAL STANDARD
Federal Rule of Civil Procedure 56 provides, in
relevant part, that summary judgment is appropriate “if
pleadings depositions, answers to interrogatories, and
admission on file, together with the affidavits, if any
Case: 2-12-cv-01074-ALM-NMK Doc #: 59 Filed:
01/10/14 Page: 5 of IkO PAGEID # 1249
show that there is no genuine issue as to any material
fact and the moving party is entitled to judgment as a
matter of law. “ A fact is deemed material only if it
“might affect the outcome
of the lawsuit under the governing substantive law.” Wiley
v. United States, 20F.3d 222, 224 (6* Cir. 1994) citing
Anderson u. Liberty Lobby, Inc., All U.S. 242, 247-48.
(1986)) The nonmoving party must then present
“significant probative evidence” to show that “there is
[more than] some metaphysical doubt as to the material
fats.” Moore v. Phillip Morris Cos. In. 8 f.3d 335, 339-40
(6<h Cir. 1993). The suggestion of a mere possibility of a
factual dispute is insufficient to defeat a motion for
summary judgment. See Mitchell v. Toledo Hospital, 964
F.2d 577, 582 (6- Cir. 1992).

App. 34
Citing Gregg v. Allen-Bradley Co., 801 F.2d 859, 863 (6*
Cir. 1986. Summary judgment is inappropriate, however,
“if the dispute is about a material fact that is ‘genuine/ that
is, if the evidence is such that a reasonable jury could
return a verdict for the non-moving party.” Anderson, 477
U. S. at 248.
The necessary inquiry for this Court is “whether the
evidence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that one
party must prevail as a matter of law.” Patton v. Bearden
8 F3d 343, 346 (6th Cir. 1993) (quoting Anderson, 477 U.S.
at 251-52). In evaluating such a motion, the evidence
must be viewed in the fight most favorable to the
nonmoving party. See United States v. Diebold, In., and
369 U.S. 654, 655 (1962).
The mere existence of a scintilla of evidence in support of
the opposing party’s position will be insufficient to survive
the motion; there must be evidence on which the jury
could reasonably find for the opposing party. See
Anderson, 477 U.S. at 251; Copeland v. Machulis, 57 F.3d
476, 479 (6f. Cir. 1995).
Case: 2-12-cv-01074-AIM-NMK Doc #: Filed:
01/10/14Page: 6 of 10 PAGED) #: 1250
V. LAW AND ANALYSIS
Plaintiffs “Motion for Judgment on the Pleadings or, in
the alternative, Motion for Summary Judgment” (Doc. 33)
(“Plaintiffs Motion”), which by its caption appears to seek
judgment on the pleadings under Fed. R. Civ. P. 12 ©, or
summary judgment in favor of Plaintiff under Fed. R. Civ.
P. 56, in fact argues only that summary judgment in favor
of Defendant should be denied. Thus, while Plaintiff recites
the language of Rule 56, and references various Ohio cases
regarding summary judgment (see Doc. 33 at 2-5), Plaintiff
argues only that Defendant... is not entitled to summary
judgment Defendant should be denied. Thus, while

App. 35
Plaintiff recites the language of Rule 56, and references
various Ohio cases regarding summary judgment (see Doc.
33 at 2-5).
That .Defendant... is not entitled to summary judgment
because . . . there exist several genuine issues of material
fact” (Id. at 6).
Anticipating that Defendant would move for summary
judgment, Plaintiff filed her Motion to argue preemptively,
that summary judgment would be inappropriate. Plaintiff
asserts that she has established her prima facie case by
showing that she is a member of a protected class, that she
was treated differently than another person who is not a
Member of that class, that is, Robena Hawkins, the
Caucasian individual who took over Plaintiffs role after her
demotion. (Id at 15-17).
In support of this position Plaintiff argues that she
was treated differently that Ms. Hawkins, because she
had train Ms. Hawkins how to fulfill her position as
presiding judge, and thus Ms. Hawkins is unqualified for
the job from which Plaintiff was removed. (Id. at 17-18).
Plaintiff further insists that the “Inconsistencies” between
the various statements submitted to the OCRC are “an
attempt by Defendant to cover up a violation of Title VII.”
(Id. at 18). Thus, Plaintiff concludes that Defendant is not
entitled to summary judgment. (Id. at 19).
Defendant’s “Motion to Dismiss” (Doc. 41) was filed
three months later, and argues in favor of summary
judgment. Plaintiff did not respond to or otherwise oppose
this Motion, apart from her earlier pre-motion opposition.
Defendant argues that summary judgment is appropriate
because: (1) Plaintiff was not an employee of the Franklin
County Board of Elections, thus rendering 45 U.S.C. §
2000 et seq. inapplicable; (2) Defendant did not engage in
any discriminatory practices; and (3) Defendant is not
“sui juris’ and lacks the capacity to be sued.

App. 36
Defendant first argues that Plaintiff was not an
employee of the Franklin County Board of Elections.
Instead, Defendant asserts that Plaintiff was a “Precinct
Case: 12-cv-01074-ALM-NMK Doc #: 59 Filed: 01/10/14
Page 8 of 10 PAGEID #:1252
Election Official’ appointed under O.R.C. §3501.22 for the
“sole purpose of helping administer the primary and
general elections during the year in which she is
appointed.” (Doc. 41 at 4). Defendant reasons that because
federal employment discrimination statutes protect only
employees, not independent contractors, Plaintiff is not
protected, and her suit must be dismissed. (Id. At 5).
It is well settled that only employees, and not
“independent Contractors,” are protected by Title VII.
Brintley St. Mary Mercy Hosp., No. 12-2616, 2013 WL
6038227, at *2 (6th Cir. Nov. 15, 2013); Shah v. Deaconess
Hosp., 355 F.3d 496, 499 (6* Cir. 2004). Section 2000 e(f),
Title 42 United States Code, helpfully defines “employee” as
“an individual employed by an employer.” In the Sixth
Circuit, an employment relationship is defined, in practice,
by a fact intensive balancing test which assesses numerous
factors including:

The Ohio Civil rights statutes, O.R.C. §4112 et seq., similarly
requires employee, not independent contractor status, and follows the
same multi-factor analysis used in this Circuit. See Berge v.
Columbus Cmty. Cable Access, 736 N.E.2d 517, 530 (Ohio App.
1999) (requiring employer relationship under O.R.C. § 4112); Perron
v-Hnnd-Tndus^-No—L-06-1396.-2007-Ohio^4478._^ 32 (Ohio Ct. Ann.
Aug. 31, 2007) (applying Sixth Circuit (case law and Darden factors to
determine employee vs. independent contractor status).

App. 37
[1] the hiring party’s right to control the manner and
means by which the product is accomplished; [2] the skill
required by the hired part; [3] the duration of the
relationship between the parties; [4] the hiring party’s
right to assign additional projects, [5] the hired party’s
discretion over when and how to work; [6] the method of
payment; [7] the hired party’s role in hiring an paying
assistants; [8] whether the work is part of the hiring
party’s regular business; [0] the hired party’s benefits,
and [10] tax treatment of the hired party’s compensation
Case: 2:12-cv-01074-ALM-NMK Doc #: 59 Filed:
01/10/14 Page: 8 of 10 PAGED #: 1252
Simpson v. Ernst & Young, 100 F.3d 436 (6th Cir. 1996)
(citing Nationwide Mut. Ins. Co. v. Darden, 503 U.S. 318,
323-24 (1992))); see also Guinn v. Mount Carmel Health,
No. 2:09-CV-226, 2013 WL 4605711, at *8 (S.D. Ohio Aug.
29, 2014).
In this case, the factors outlined by the Sixth Circuit
counsel strongly in favor of an independent contractor
relationship: (1) election procedures are governed by Ohio
law, independent contractor relationship: (1) Election
procedures are governed by Ohio law, which spells out the
manner of appointment, and duties, of election officials see
O.R.C. § 3501 et seq.; (2) the skills required by election
officials are detailed in O.R.C. § et seq.; (3) the duration of
the appointment is for a short, fixed period, lasting typically
only one year, see id. (“The term of such precinct officers
shall be for one year”); (4) election officials cannot be
assigned additional projects, as they are appointed for a
specific purpose, and not to act as general agents; (5) the
board of elections has no discretion over how and when
election officials work, as their duties set forth by statute;
(6) election officials are paid by vouchers of the county
board of elections upon warrants of the county auditor,
O.R.C. § 3501 § 3501.17(A) ;(7) election officials are not
empowered to hire or pay assistants; (8) the work
performed by election officials is part of the hiring party’s
regular business; (9) election officials do not receive any

App. 38
benefits or retirement contributions; and (10) election
officials are treated as independent contractors for taxation
purposes, and given form IRS 1099 (see Affidavit of Dana
Walch, Doc, 41 at 15-16).
Because the factors weigh almost uniformly in favor of
an independent contractor relationship, the Court
concludes that, as a matter of law, Plaintiff was not an
employee of the Franklin County Board of Elections, and
thus her claims under Title VII, and the related Ohio civil
rights laws, fail. For these reasons, Defendants’ Motion
(Doc. 41) is hereby GRANTED. Plaintiff Motions (Doc. 33,
56 are hereby DENIED.
VI. OTHER PENDING MOTIONS
Several other motions remain pending for this Court
which are ripe for resolution. Plaintiffs Motion for
Default Judgment (Doc. 19) asks the Court to enter
default judgment against Defendant, based on
Defendant’s failure to answer within 45 days. Whatever
the implicit merits of this motion, the Court has already
addressed Defendant’s untimeliness: on February 2013,
the Court ordered the Defendant to report on the status of
the case within 14 days (Doc. 12) which Defendant did on
February 28 (Doc. 13).
The Defendant moved for additional time to answer (Doc
14), which the court granted (Doc. 15). The Defendant then
answered on March 4, 2013, within the new time period
granted by the Court (Doc. 16). Accordingly, there is no
basis to grant a motion for default judgment. See Walton v.
Rogers, No. 88-3307, 860 F.2d 1081, at *1 (6* Cir. Oct. 19,
1988) (“Default judgments are disfavored, and there must
be strict compliance with the legal prerequisites
establishing the court’s power to render the judgment”);
Eitel V. McCool,-782 F:2d 1470, 1472 (9* Cir-1986) (-Our---starting point is the general rule that default judgments
are ordinarily disfavored. Cases should be decided upon
their merits whenever reasonably possible.”). Plaintiffs
Motion for Default Judgment (Doe. 19 is therefore DENTED.

App.39
Case: 2:12-cv-01074-ALM-NMK Doc #: 59 Filed 01/10/14
Page: 10 of 10 PAGEID #: 1254
In addition, Plaintiff asks for a status conference (Doc.
55) “in order o discuss the many fundamental errors of
[Magistrate] Judge King in this case.” Without commenting
on the merits of Magistrate Judge King’s orders, the Court
finds that a status conference is unnecessary tin order to
resolve the pending motions in this case. Plaintiffs Motion
is hereby DENIED.
VII. CONCLUSION
For the reasons stated above, Plaintiffs Motion for
Default Judgment (Doc. 19) is hereby DENIED. Plaintiffs
Motion opposing summary judgment (Doc. 3)3) and her
renewed Motion for same (Doc. 56) are hereby DENIED.
Defendant’s Motion to Dismiss (Doc. 41) is hereby
GRANTED. Plaintiffs motion for a status conference
(Doc. 55) is hereby DENIED. This case is hereby
DISMISSED.
See Appendixes I: 2 thru 4.
IT IS SO ORDERED.
“s/

ALGENON L. MARBLEY. JUDGE
UNITED STATES DISTRICT JUDGE

DATED: January 10,2014

App. 40
Case: 2:12-cv-01074-ALM-NMK Doc #: 15 Filed:
03/04/13 Page: 1 of 1 PAGEID 625
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
GRACIE E. MCBROOM,
Plaintiff,

Civil Action 2:12-cv-1074
Judge Marbley
Magistrate Judge King

vs.
HR DIRECTOR FRANKLIN COUNTY
BOARD OF ELECTIONS
Defendant.

ORDER
Upon motion, Doc. No 14, defendant HR Director
Franklin County Board of Election is GRANTED leave
to file an answer instanter.
The Clerk is DIRECTED to file the Answer, which
is attached to the motion.
“s/

Norah McCann King
United States Magistrate Judge

March 4, 2013

App. 41
Case: 2-12-cv-01074-ALM-NMK Doc #: 20 Filed:
03/13/13 Page: 1 of 1 PAGEID #: 653
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO EASTERN
DIVISION
GRACIE E. MCBROOM,
Plaintiff,

Civil Action 2:12-cv-1074
Judge Marbley
Judge King

vs.

HR DIRECTOR FRANKLIN COUNTY
BOARD OF ELECTIONS
Defendant.
ORDER
Plaintiff, who is proceeding in forma pauperis
without the assistance of Counsel, has filed a response
to defendant’s Answer. The Federal Rules of Civil
Procedure do not, however, permit a response to an
answer. See Fed. R. P. 7(a).
Accordingly, Plaintiff s Answer to Defendant’s
Answer of Defendant Franklin County Board of
Elections to Plaintiffs Complaint, Doc. No. 18, is
ORDERED STRICKEN from the record.
/”s”/

Norah McCann King
United States Magistrate Judge

App 42
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
www.oshd.uscourt gov
John P. Hehman, Clerk of Court
Federal Building
Potter Stewart U.S. Courthouse
200 West Second
100 East Fifth Street
Street
Dayton OH 45402
Cincinnati, OH 45202
937-512-1400
513-564-1400
July 8, 2013
Re: McBroom vs HR Director Franklin County Board of
Elections et al
Dear Ms. McBroom:
Enclosed please find the document you requested
per our phone conversation. The document was #41 on
the docket.
The Response in Opposition re 33 MOTION Defendant
Franklin County Memorandum Contra and Motion to
Dismiss filed by Defendant HR Franklin County
Board of Elections, which was filed by Scott Gaugler
on 6/10/2013.
Sincerely,
“s/

Jessica Rector, Deputy Clerk

App. 43
Orders on Motions
2-12-CV-01074-ALM-NMK
McBroom v. HR Director Franklin
Countv Board of Election et al
CASE CLOSED on 01/10/2014
ADR., APPEAL, JURY
U.S. District Court
Southern District of Ohio
Notice of Electronic Filing
The following transaction was entered on 4/4/2012 at
2:10 PM EDT was filed on 4/4/2014
McBroom v. HR Director Franklin
Case Name:
County Board of Elections et al
2:12-CV-01074-A1M-NMK
Case Number:
Filer:
WARNING: CASE CLOSED on 01/10/2014
Document Number: 65
Docket Text:
ORDER denying [61] Motion for Reconsideration,
signed by Judge Algenon L. Marbley on 4/4/2014.
(cw)
2:12-cv-01074-ALM-NMK Notice has been
electronically mailed to:
Scott J. Gaugler sigaugle@franklincountvohio.gov
Jeffrey Charles Rogers

App. 44
icrogers@franklincountvohio.gov App. 22 2:12-cv01074-ALM-NMK Notice has been delivered by
other means to:
Gracie E. McBroom
636 Koebel Avenue
Columbus, OH 43207
The following document(s) are associated with this
transaction:
Document description: Main Document
Original filename: n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1040326259 [Date=4/4/2014]
[File Number=43743
0 [63e lc174594b3587d733806ca8dec7419f0e 1 Ie09d3deaa04
bf058900450850967
F1886d4f9f89b5df03173a2eaed6db4011a98686abfc5393e73
6af31a0b57]]

App. 45
Case: 2-12-cv-01074-ALM-NMK Doc #: 65 Filed:
04/04/14 Page: 1 of 2 PAGEID #: 1274
IN THE UNITED STATES DISRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
GRACIE E. MCBROOM,
Plaintiff,
v.

CaseiNo. 2:12-CV-01074

JUDGE ALGENON L. MARBLEY

HR DIRECTOR FRANKLIN COUNTY
Magistrate Judge King
BOARD OF ELECTIONS, et al.,
Defendant,

OPINION & ORDER

This matter is before the Court on Pro se Plaintiff
Gracie E. McBroom’s Motion for Reconsideration (Doc.
61).
Plaintiff requests that the Court reconsider its Opinion and
Order of January 10, 2014, granting Defendants’ Motion to
Dismiss.1 (Id, at 2), Plaintiff does not offer any reasoning or
argument why the Court should grant such a motion.
Under Fed. R. Civ. P. 59(e), a district court will
reconsider a prior decision “if the moving party
demonstrates: (1) a clear error of law; (2) newly discovered
evidence that was not previously available to the parties; or
(3) an intervening change in controlling law.” Owner
Operator Indep. Drivers Ass’n, Inc. v. Arctic Express, Inc.
288 F. Supp. 2d 895, 900 (S.D. Ohio 2003); see also Gen.
Corp., Inc. v. Am. Int’l Underwriters, 178 F.3d 804, 834 (6*

App. 46
Cir. 1999) (a judgment may also be altered or amended
when necessary “to prevent manifest injustice”). A motion
under Rule 59€, however, is “not an opportunity to
reargue a case.” Sault Ste. Marie Tribe of Chippewa
Indians v. Engler, 146, F.3d 367, 374 (6th Cir. 1998).
Rule 59(e) may not be used to relitigate old matters, or to
raise arguments or present evidence that could have been
raised prior to the entry of judgment.” Exxon Shipping
Co. v. Baker, 554 U.S. 471, 486 n. 5 (2008) (quotation
omitted).
1 As explained in the Court’s Opinion and Order
Defendants’ Motion (Doc. 41), while captioned “Motion to
Dismiss Plaintiffs Complaint ” in fact argues,
substantively, for summary judgment. (See Doc. 59 at 7).
The Court accordingly decided Defendants’ Motion in light
of its substance, no its title.
Case: 2:12-ocv-01074-ALM-NMK Doc #: 65 Filed:
04/04/14 Page: 2 of 2 PAGEID 1275
Generally, a manifest injustice or a clear error of law
requires “unique circumstances,” such as complete failure
to address an issue or claim. McWhorter v. ELSEA, Inc.,
No. 2:00-CV-473 2006 WL 3483964, at *2 (S.D. Ohio Nov.
30, 2006) (citing Collison v. Int’l Chem. Workers Union,
Local 217, 34 F.3d 233, 236 (34- Cir. 1994)).
The grant or denial of a Rule 59€ motion “is within the
informed discretion of the district court.” Huff v. Metro.
Life Ins. Co., 675 F.3d 119, 122 (6th Cir. 1982).
Significantly, “justice does not require that the district
court [grant reconsideration] on an issue that would not
alter the district Court’s prior decision.” Rodriguez v.
Tennessee Labofers'Health~&'Welfare“Fund789‘F^pp’x949, 959-60 6* Cir. 2004).

App.47

In this case, Plaintiff directs the Court to no clear error
of law, newly discovered evidence, or change it controlling
law; nor does Plaintiff explain how reconsideration is
necessary to prevent a manifest injustice. Accordingly,
Plaintiffs Motion for Reconsideration (Doc. 61 is DENIED.
IT IS SO ORDERED.
“sr

ALGENON L. MARBLEY
UNITED STATES DISTRICT JUDGE
DATED: April 4,2014

App. 48
As of April 27,2015 3:15 PM EDT
MCBROOM V. HR DIR. FRANKLIN COUNTY Bd. Of
ELECTIONS
United States District Court for the
Southern District of Ohio,
Eastern Division
January 10, 2014, Decided; January 10, 2014,
Filed Case No. 2:12-CV-01074
Reporter
2014 U.S. Dist. LEXIS 3422; 2014 WL 116369
GRACIE E. MCBROOM, Plaintiff, v. HR DIRECTOR
FRANKLIN COUNTY BOARD OF ELECTIONS, et
al.,
Defendants.
Prior History: McBroom v. HR Dir. Franklin County
Bd. Of Elections. 2013 U.S Dist. LEXIS 116495 (S.D.
Ohio.
(Aug. 9. 2013).
Core
Terms
Elections, summary judgment, election official argues,
hired, party’s precinct, summary judgment motion, status
Conference, contractor, Pleadings motions, default
judgment Presiding judge, county board, motion for
default appointed. Counsel: [*] Gracie E. McBroom,
Plaintiff, Pro Se Columbus, OH. For HR Director Franklin
County Board of Elections, Defendant: Jeffrey Charles
Rogers, LEAD ATTORNEY, Franklin County Prosecutor’s
Office, Columbus, OH; Scott J. Gaugler, Franklin County
Prosecutor’s Office, Civil Division Columbus, OH.

App. 49
Judges: ALGENON L. MARBLEY, UNITED STATES
DISTRICT JUDGE: Magistrate Judge King.
Opinion by: ALGENON L. MARBLEY
OPINION
OPINION & ORDER
II.

INTRODUCTION

This matter is before the Court on Plaintiffs “Motion
for Judgment on the Pleadings or, in the alternative,
Motion for Summary Judgment” (Doc. 33) and Defendant’s
Response and Motion to Dismiss (Doc. 41). Pro Se Plaintiff,
Gracie McBroom, brings this action for alleged employment
discrimination, arising from her work as a Precinct Judge
with the Franklin County Board of Elections. Plaintiff asks
the Court to deny an anticipated motion for summary
judgment, which Defendant subsequently filed, but
captioned as a “Motion to Dismiss” (Doc 41). In addition,
Plaintiff moves for default judgment (Doc 19), based on
Defendant’s late Answer, and for a status conference (Doc.
55). Plaintiff also renews her anticipatory opposition to
summary judgment by re-filing a nearly-identical Motion
(Doc. [*2] 56).
For the reasons set forth herein, Plaintiffs Motion for
Default Judgment (Dec. 19) is DENIED. Plaintiffs Motion
for status conference (Doc. 55 is DENIED. Plaintiffs
“Motion for Judgment on the Pleadings or, in the
alternative, Motion for Summary Judgment” (Doc. 33 & 56
is DENIED, and Defendant’s Response and Motion to
dismiss (Doc. 41) is GRANTED.
II. PROCEDURAL POSTURE
Plaintiff filed this action on November 21, 2012, against
Attorney Scott J. Gaugler and the H.R. Director for the
XT'____ i3

av

An o

rrw K\

App. 50
On the same day, the Magistrate Judge issued a Report and
Recommendation, recommending dismissal of the claims
against Defendant Gaugler (Doc. 7), which the Court
adopted on December 4, 2012 (Doc. 10).
When Defendant H.R. Director failed to answer in the
allotted 45 days, the Magistrate Judge, on February 14,
2013, ordered Defendant to report on the status of the case
2014 U.S. Dist. LEXIS 3422, *3
(Doc. 12) Defendant did so, on February 28 (Doc. 13),
and moved the next day for an extension of time to file his
Answer (Doc. 14). The Court granted this extension (Doc.
15), and Defendant filed his Answer on March 4 (Doc. 16).
Nevertheless, Plaintiff moved for default judgment on
March [*3] (Doc. 19). That Motion remains pending
before the Court.
On May 15, 2013, after several unsuccessful attempts to
force the recusal of the Magistrate Judge, Plaintiff filed the
pendant “Motion for Judgment on the Pleadings or, in the
alternative, Motion for Summary Judgment (Doc. 33). That
motion anticipates that Defendant will file a motion for
summary judgment, and argues that it should be denied. It
does not argue for judgment on the pleadings, nor does it
argue for summary judgment in Plaintiffs favor. On June
6, Defendant responded, and moved for summary judgment
(Doc. 41).

App. 51
Subsequently, Plaintiff filed the following motions: to
produce documents (Doc. 45); to amend her motion for
default judgment (Doc. 46); for sanctions (Doc. 47); to
compel (Doc. 48); to produce documents (Doc 49); for leave
to file a late response to Defendant’s Motion to Dismiss
(Doc. 50); to amend (Doc. 51); and “for annulment of
judgment” on Defendant’s motion to dismiss (Doc. 52). The
Court denied all of these Motions on August 9, 2013 (Doc.
53).
In response to the Magistrate Judge’s denial of her
various motions, Plaintiff moved for a status conference,
on August 22 (Doc. 55). Plaintiff then repeated [*4] her
Opposition to Summary judgment, by filing a document
nearly identical to her original Motion, on August 23 (Doc.
56). The motion for status conference, as well as the
renewed Motion (to the extent it differs from the original)
also remains pending before the Court.
III.

STATEMENT OF FACTS

Plaintiff brings her claim for workplace discrimination
under 42 U.S.C. § 2000e-5(f)(l). Plaintiff has worked as a
voting official for Defendant since 1981, including as a
precinct judge in 1992 and 1993. (Complaint, Doc. 5, at 10).
In 1994, Plaintiff was demoted from her precinct judge role
for the 1994 election. (Id. At 10-11). In response, Plaintiff
filed a civil rights complaint, which was dismissed by the
Court of Common Pleas on September 29, 1995, and the
dismissal was affirmed by the Court of Appeals on June 20,
1996 (Id. at 11). After this incident, Plaintiff continued to
work with the Board of Elections and served as a judge in
2000 and 2002, a roster judge in 2003, and presiding judge
in 2004 and 2006. (Doc. 5-1 at 3). Plaintiff also worked in
the 2010 and 2011 elections.

App. 52
(Doc. 5 at 5). With regard to the instant case, Plaintiff
alleges that, on December 22, 2011, Mary Hackett, the
Precinct [*5] Election Official Manager, and Deborah
Cotner, Precinct Election Official Coordinator, removed
Plaintiff as precinct judge and replaced her with Hawkins,
2014 U.S. Dist. LEXIS 3422, *3
a white woman. (Id. at 2-3). Plaintiff argues that Ms.
Hawkins is “far less” qualified than Plaintiff, and that
Plaintiff was removed because of her “race and color.” (Id.
at 3). Plaintiff acknowledges that Defendant informed her
that she had failed her performance tests and that
Defendant “wanted someone with [a] better skill set than
Plaintiff, “ but Plaintiff disputes that she has failed any
required test and argues that her work in the 2010 and
2011 elections demonstrates her capability. (Id.). Plaintiff
asserts that she was never informed of any problem with
her skills or performance. (Id. at 8). In addition, Plaintiff
alleges that she was replaced as precinct judge “in
retaliation for” her 1995 civil rights complaint. (Id. at 9).
In support of her allegations, Plaintiff asserts that she
was unaware that Ms. Hawkins was being prepared as her
replacement, even as she trained Ms. Hawkins in the
responsibilities of a presiding judge. (Doc. 5-1 at 3-4, 7).
Plaintiff argues that Ms. Hawkins was unqualified for the
position of [*6] presiding judge, and that she only could
have been given the job by means of improper racial
preference. (Id. at 8).
Plaintiff also takes issue with the performance problems
cited by her supervisors at the Election Board. During the
2011 elections, certain Elections Board officials reported
that Plaintiff was late to arrive to the polling site on the
day of 2011 elections. (Id. At 4).

App. 53
Plaintiff disputes that she was late and argues that this
could not have been the case, since the back-up
procedures intended to be followed if the presiding judge
is late were never put into action. (Id.). Plaintiff also
recounts that elections officials complained of her sleeping
on the job, which she denies. (Id. at 5). Several other
accounts state that Plaintiff had a “difficult time” working
as presiding judge, and that she seemed overwhelmed and unable to manage the polling station. (Id. at 10-13).
On the other hand, Plaintiff cites several Election workers
who reported no issues with her performance. (Id. at 8-9).
On January 10, 2013, Plaintiff filed a complaint with the
Ohio Civil Rights Commission (“OCRC”) alleging
substantially the same facts as described here. (Doc. 5 at
5; Doc 5-1 at [*7] 14). Plaintiff also filed charges with the
United States Equal Opportunity Employment
Commission (“EEOC”). (Doc. 5-1 at 14). The EEOC
declined to proceed, on the grounds that no employee
relationship existed between Plaintiff and Defendant.
(Doc. 5 at 4). Plaintiff received her “EEOC” right to sue”
letter on September 4, 2012. (Id). Plaintiff filed suit on
November 20, 2012 asserting claims for civil rights
violations. Plaintiff seeks reinstatement, new
supervisors, and back pay. He also requests $7,000,000 in
punitive and compensatory damages. (Doc. 5 at 3).
IV. LEGAL STANDARD
2014 U.S. Dist. LEXIS 3422, *7
Federal Rule of Civil Procedure 56 provides, in relevant
part, that summary judgment is appropriate “if the
pleadings, depositions, answers to interrogatories, and
admissions on file, together with the affidavits, if any, show
that there I no genuine issue as to any material fact and the
moving party is entitled to judgment as a matter of law.” A
fact is deemed material only if it “might affect the
outcome of the lawsuit under the governing substantive
law.,”

App. 54
Wilev v. United States. 20 F3d 222. 224 (6th Cir. 1994)
(citing Anderson v. Liberty Lobby. Inc.. 477 U.S. 242.
24748. 106 S. Ct. 2505. 91 L. Ed.2d 202. (19861). The
nonmoving party must [*8] then present “significant
probative evidence” to show that “there is [more than]
metaphysical doubt as to the material facts.” Moore
v.Phillip Morris Cos.. Inc. 8 F.3d 335. 339-40 (6^ Cir.
19931.
The suggestion of a mere possibility of a factual dispute is
insufficient to defeat a motion for summary judgment.
See Mitchell v.. Toledo Hospital. 964 F.2d 577. 582 (6th Cir.
1992 (citing Gregg v. Allen - Bradley Co.. 801 F. 2d 859.
863 (6th Cir. 19861). Summary judgment is inappropriate,
however, “if the dispute is about a material fact that is
‘genuine,’ that is, if the evidence is such that a reasonable
jury could return a verdict for the non-moving party.”
Anderson. 477 U.S. at 248.
The necessary inquiry for this Court is “whether ‘the
evidence presents a sufficient disagreement to require
submission to a jury or whether it is so one-sided that one
party must prevail as a matter of law.” Patton v. Bearden. 8
F.3d 343. 346 (6th Cir. 1993) (quoting Anderson. 477 US. at
251- 52). In evaluating such a motion, the evidence must
be viewed in the light most favorable to the nonmoving
party. See United States v. Diebold. Inc.. 369 U.S. 654.
655. 82 S. 993. 8 L Ed. 2d 176 (1962). The mere existence
of a scintilla of [*9] evidence in support of the opposing
party’s position will be insufficient to survive the motion;
there must be evidence on which the jury could reasonably
find for the opposing party. See Anderson. 477 U.S. at 251;
Copeland v. Machulis. 57 F.3d 476. 479 (6th Cir. 1995.
V.

LAW AND ANALYSIS

Plaintiffs “Motion for Judgment on the Pleadings or, in the
alternative, Motion for Summary Judgment’ (Doc. 33)
(“Plaintiffs Motion”), which by its caption appears to seek
judgment on the pleadings under Fed. R. Civ. P. 12(c). or

App. 55
summary judgment in favor of Plaintiff under Fed. R. Civ.
P. 56, in fact argues only that summary judgment in favor
of Defendant should be denied. Thus, while Plaintiff recites
the language of Rule 56, and references various Ohio Cases
regarding summary judgment (see Doc. 33 at 2-5), Plaintiff
argues only that Defendant... is not entitled to summary
judgment because . . . there exist several genuine issues of
material fact” (Id. At 6).
2014 U.S. Dist. LEXIS 34422, *7
Anticipation that Defendant would move for summary
judgment. Plaintiff filed her Motion to argue,
preemptively, that summary judgment would be
inappropriate. Plaintiff asserts that she has established
her prima facie case by showing that [*10] she is a member
of a protected class, and that she was treated differently
than another person who is not a member of that class,
that is, Robena Hawkins, the Caucasian individual who
took over Plaintiffs role after her demotion (Id. At 15-17).
In support of this position, Plaintiff argues that she was
treated differently that Ms. Hawkins, because she had to
train Ms. Hawkins how to fulfill her position as presiding
judge, and thus Ms. Hawkins is unqualified for the job from
which Plaintiff was removed. (Id. At 17-18). Plaintiff
further insists that the “inconsistencies” between the
various statements submitted to the OCRC are “an attempt
by Defendant to cover up a violation of Title VII.” (Id at 18).
Thus, Plaintiff concludes that Defendant is not entitled to
summary judgment. (Id. At 19).
Defendant’s “Motion to Dismiss” (Doc. 41) was filed three
months later, and argues in favor of summary judgment.
Plaintiff did not respond to or otherwise oppose this Motion,
apart from her earlier pre-motion opposition. Defendant
argues that summary judgment is appropriate because(l)

App. 56
Plaintiff was not an employee of the Franklin County
Board of Election, thus rendering 42 U.S.C. § 2000 et seq.
applicable; (2) Defendant did not engage in any
discriminatory practices; and (3) Defendant is not “sui
juris” and lacks the capacity to be sued.
Defendant first argues that Plaintiff was not an
employee of the Franklin County Board of Elections.
Instead, Defendant asserts that Plaintiff was a “Precinct
Election Official” appointed under O.R.C. § 3501.22 for the
“sole purpose of helping administer the primary and
general elections during the year in which she is
appointed.” (Doc. 41 at 4). Defendant reasons that
because federal employment discrimination statutes
protect only employees, not independent contractors,
Plaintiff is not protected and her suit must be dismissed.
(Id. at 5).
It is well settled that only employee, and not “independent
contractors,” are protected by Title VII. > Brintlev v. St.
Mary Mercv Hosn. No. 12-2616. 545 Fed Appx. 484. 2013
U.S. Ann. LEXIS 23144. 20213 WL 6038227. AT *2 (6*
Nov. 15. 2013) Shah. Deaconess Hosn.Hosn.355 F. 3d
496. 499 (6th Cir. 2004). Section 2000e (f). Title 42. United
States Code, helpfully defines “employee” as an
individual employed by an employer.” In the Sixth Circuit,
an employment relationship is defined, in practice, by a
fact-intensive balancing test which assesses numerous
[*12] factors, including: [1] the hiring party’s right to
control the manner and means by which the product is
accomplished; [2] the skill required by the hired party; [3]
the duration of the relationship between the parties
[4] the hiring party’s right to assign addition how to work;
[5] the hired party’s discretion over when and how to work;
[6] the method of payment; [7] the hired party’s role in
hiring and paying assistants; [8] whether the work is part
of the hiring party’s regular business; [9] the hired party’semployee Benefits’ and [10] tax treatment of the hired
Party’s compensation. Simpson v. Ernst & Young. 100
F.3d 436. 443 (6th Cir. 1996 (citing Nationwide Mut. Ins. Co.
v. Darden. 503. U.S. 318. 323-24. 112 S. Ct. 1344. 117 L.

App. 57
Ed. 2d 581 (1992): see also Guinn v. Mount Carmel Health
No. 2:09-CV-226, 2013 U.S. Dist. LEXIS 123983. 2013 WL
4605711. at * 8 (S.S. Ohio Aug. 29. 2013).
In his case, the factors outlined by the Sixth Circuit counsel
strongly in favor of an independent relationship: (1) election
procedures are governed by Ohio law, which spells out the
manner of appointment, and duties of election officials, see
O.R.C. $ 3501 et sea.: (2) the skills required by election
officials are detailed in O.R.C. § 3501.22: (3) the duration of
the appointment is for a short fixed period lasing typically
only one year; see id. (“The term of such precinct officers
shall be for one year.”); (4) election officials cannot assigned
additional projects; as they are appointed for a specific
purpose, and not to act as general agents; (5) the board of
elections has no discretion over how and when election
official work, as their duties are set forth by statute; (6)
election officials are paid by vouchers of the county board of
election, upon warrants as of county auditor, O.R.C. §
3501.17 (A); (7) election officials are not empowered to hire
1 The Ohio Civil rights statue, O.R.C. § 4112 et seq,
similarly requires employee, not independent contractor status, and
follows the same multi-factor analysis used in this Circuit. See Berge v.
Columbus Cmtv. Cable Access. 136 Ohio App. 3d 281736 N.E. 2d 517,
530 (Ohio Ann. 1999 (requiring employer-employee relationship
under O.R.C. $ 4112b: Perron v. Hood Indus.. Inc.. No. L-06-1396,
2007Qhio -4478. IT 32 (Ohio Ct. A. Aug. 31. 2007) 1*131 applying sixth
Circuit case law and Darden factors to determine employee vs.
independent contractor status).

App. 58
or pay assistant; (the work performed by election officials
is part of the hiring party’s regular [*14] business; (9)
election officials do not receive any benefits or retirement
contributions; and (10) election officials are treated as
independent contractors for taxation purposes, and given
form IRS 1099 (see Affidavit of Dana Welch, Doc. 41 at 1516).
Because the factors weight almost uniformly in favor of
an independent contractor relationship, the Court concludes
that, as a matter of law, Plaintiff was not an employee of
the Franklin County Board of Elections, and thus her
claims under Title VII, and the related Ohio civil rights
laws, fail. For these reasons, Defendants’ Motion (Doc. 41)
is hereby GRANTED. Plaintiffs Motions (Doc. 33, 56) are
hereby DENIED.
IV. OTHER PENDING MOTIONS
Several other motions remain pending for this Court
which are ripe for resolution. Plaintiffs Motion for
Default Judgment (19) asks the Court to enter default
judgment against Defendant, based on Defendant’s failure
to answer within 45 days. Whatever the implicit merits
on this motion, the Court has already addressed
Defendant’s untimeliness: on February 14, 2013, the
Court ordered the Defendant to report on the status of
Court ordered the Defendant to report on the status of
the case within 14 days (Doc. 12), which Defendant did on
February 28 (Doc. [*15] 13). The Defendant moved for
additional time to answer (Doc. 14), which the Court
granted (Doc. 15). The Defendant then answered on
March 4, 2013, within the new time period granted by the
Court (Doc. 16). Accordingly, there is no basis to grant a
motion for default judgment. See Walton v. Rogers. 860
F.2d 1081. at *1 (6^ Cir. 1988) (“Default judgments are
disfavored, and there must be strict compliance with the
legal perquisites establishing the court’s power to render
the judgment”); Eitel v McCooll, 782 F.2d 1470. 1472 (9th
Cir. 1986) (“Our starting point is the general rule that

“

App. 59
default judgments are ordinary disfavored. Cases should
be decided upon their merits whenever reasonably
possible.”). Plaintiff Motion for Default Judgment (Doc.
19) is therefore DENIED.
In addition, Plaintiff asks for status conference (Doc. 55) “in
order to discuss the many fundamental errors of
[Magistrate] Judge King in this case.” Without
commenting on the merits of Magistrate Judge King’s
order, the Court finds that a status conference is
unnecessary in order to resolve the pending motions in this
case. Plaintiffs Motion is hereby DENIED.
VI. CONCLUSION
For the reasons (Doc. 19) is hereby DENIED. Plaintiffs
Motion opposing summary judgment (Doc. 56) are hereby
DENIED. Defendant’s Motion to Dismiss (Doc. 41) is
hereby GRANTED. Plaintiffs motion for a status
conference (Doc. 55 is hereby DENIED. This case is hereby
DISMISSED.
IT IS SO ORDERED.
s”/

ALGENON L. MARBLEY
UNITED STATES DISTRICT JUDGE
DATED: January 10,2014

App. 60
As of: April 27,2015 3:15 PM EDT
McBroom v. HR Director Franklin County Board of
Elections
U. S. District Court for the Southern District of Ohio,
Eastern Division
August 9, 2013 2014, Decided; August 9, 2013, Filed
Reporter
2013 U.S. Dist. LEXIS 116495; 2013 WL 40552833
GRACIE E. MCBROOM, Plaintiff, vs. HR DIRECTOR
FRANKLIN COUNTY BOARD OF ELECTIONS
Defendant.
Subsequent History: Motion denied by, Summary
judgment denied by, Dismissed by McBroom v. HR
Franklin Countv Bd. of Elections. 2014 U.S. Dist. LEXIS
3422 (S.D. Ohio. January 10. 2014
Prior History: McBroom v. HR Dir. Franklin County Bd.
of Elections, 2013 U.S. Dist. LEXIS 39475 (S.D. Ohio, Mar.
18, 2013)
Core Terms
Interrogatories, pages, discovery, appears, defense
Motion
Counsel: [*1] Gracie E. McBroom, Plaintiff, Pro Se,
Columbus, OH.
For HR Director Franklin County Board of Elections
Defendant: Jeffrey Charles Rogers, LEAD ATTORNEY
Franklin-County-Prosecutor’s-Office,-CiviLDivision,___
Columbus, OH.

App.61
Judges: Norah McCann King, United States Magistrate
Judge. Judge Marbley
Opinion by: Norah McCann King
OPINION
OPINION AND ORDER
Plaintiff, who is proceeding in forma pauperis without the
assistance of counsel, has filed a Request to Produce and
Inspect Documents Pursuant to FRCP 34, Doc. No. 45.
Plaintiffs filing appears to be her initial discovery request.
Although Plaintiffs initial discovery request must be sent
to defense counsel, they should not be filed with the Court.
Plaintiffs Request to Produce and inspect Documents
Pursuant to FRCP 34. Doc. No. 45, is therefore ORDERED
STRICKEN FROM THE RECORD.
This matter is now before the n a document filed by
Plaintiff captioned Motion to Amend, Doc. No. No. 46. It
appears that the motion seeks to amend either Doc. No. 19
or Doc. No. 33, but it is entirely unclear to the Court what
Plaintiff intends by this filing. Accordingly, to the extent
that Plaintiffs filing, D46, [*2] requests some action by the
Court that motion is DENIED.
This matter is also before the Court on Plaintiff motion
for sanctions under Fed. R. Civ. P. 26(c), Doc. No. 47.
Plaintiffs motion for sanctions seeks an order “punish[ing]
the Defendant for failing to abide by the Discovery Rules in
their [sic] Answer of Plaintiffs First Set of Interrogatories
to Defendant.” Id. at p. 1. Plaintiff argues that Defendant’s
responses to her first set of interrogatories are “slanted,
ambiguities.” Id. Plaintiffs motion does not, however,
provide any information about the interrogatories,

App. 62
nor does it include a copy of the interrogatories or
Defendant’s responses thereto. Plaintiff complains that
Defendant objected to the interrogatories as “overly broad,
impermissibly vague, unduly burdensome and seek[ing]
information that may be protected by the attorney client
privilege or attorney work product,” however, the motion
does not contain sufficient information for the Court to
determine if Defendant’s responses are actually deficient in
any way. Accordingly, Plaintiffs motion for sanctions, Doc
47 is DENIED.
This matter is also before the court for consideration of
Plaintiffs Motion to Compel, [3*] Doc. No. 48. Plaintiffs
Motion to compel response to interrogatories sent to
Defendant on May 15, 2013. Id. at pp. 1-2. Defendant has
not filed a response to this Motion to Compel.
Rule 37 of the Federal Rules of Civil Procedure authorizes
a motion to compel discovery when a party fails to provide a
proper response to interrogatories. Rule 37(a) expressly
provides that a “party seeking discovery may move for an
order compelling an answer, designation, production , or
inspection. This motion may be made if... a party fails to
answer an interrogatory submitted under Rule 33[.]” Fed R.
Civ. P. 37(a)(3)(B).. However, a party moving to compel
discovery responses must certify that she “has in good faith
conferred or attempted to confer with other affected parties
in an effort to resolve the dispute without court action.”
Fed. R. Civ. P. 37(a)(1). See also S.D. Ohio Civ. R. 37.2.
In the case presently before the Court, Plaintiff has not
certified,-or-even argued, that she made a good faith______
attempt to confer with Defendant in an effort to resolve this
dispute prior to filing the Motion to Compel. Plaintiffs
Motion to Compel, Doc. No. 48 is therefore DENIED.

App. 63
The Court also [*4] notes that certain pages of Doc. No.
481 contain personal identifying information. The Clerk is
DIRECTED place pages 3 and 9 of Doc. No. 48-1 under
seal. Also before the Court is Plaintiff s motion titled
Request to produce and Inspect Documents Pursuant to
FRCP 34. Doc. No. 49. In that filing, Plaintiff refers to a
phone call and an in-person conversation between her an
Defendant’s counsel. The motion does not, however, ask
the Court to take any action. To the extent that this
filing, Doc. No. 49, requests some action by the Court, that
motion is DENIED.
Plaintiff has filed a motion for judgment on the pleadings,
Doc. No. 33. Defendant has filed a response to that
motion which is also, apparently, intended to serve as a
motion to dismiss. Defendant Franklin County’s
Memorandum Contra and Motion to Dismiss Plaintiffs
Complaint filed November 20, 2012, 41. The Clerk is
DIRECTED to indicate pm the docket that Doc. No. 41 is
both a response to Plaintiff s motion for judgment on the
pleadings. Doc. No. 33, and a motion to dismiss the
Complaint. Plaintiff may have until August 30,2013 to
reply in support of her motion for judgment on the pleadings
an Defendant may have until [*5] August 30, 2013 to reply in
support of this motion to dismiss.
Plaintiffs remaining motions, 50, 51,, 52, appear to be
related to Defendant’s motion to file a late response to
Defendant’s motion to dismiss and a response to
Defendant’s motion. To that extent, Plaintiffs motion, 50 is
GRANTED.

App. 64
The Clerk is DIRECTED to indicate on the docket that
Doc. No. 50 is both a motion to file a late response to
Defendant’s motion to dismiss and a response to
Defendant’ motion to dismiss. To the extent that the
motion, Doc. No 50, seeks other, unspecified, action by the
Court, it is DENIED.
Plaintiffs motion, Doc. No. 52 appears to relate to a
contain portions of her prior motion. Doc No. 50. However,
the filing appears to be incomplete and it is entirely unclear
what Plaintiff intends by this fifing. To the extent that the
filing seeks action by the Court, Plaintiffs motion, 52, is
DENIED. Plaintiffs motion to amend, Doc. No. 51, seeks to
amend Doc. No. 52 to replace certain pages with pages
attached to the motion. The motion does not, however,
attach any additional pages and it is in any event unclear
which [*6] pages of Doc. No. 52 Plaintiff intends to replace.
Plaintiffs motion, 51 is therefore DENIED. Finally, the
Court notes that certain pages of Doc. No. 50-1 contain
personal identifying information. The Clerk is DIRECTED
to place pages 12, 14, and 18 of Doc No. 50-1 under seal.
The Clerk is DIRECTED to remove Doc. Nos. 45, 46, 47,
48, 49, 50, 52 from the Court’s pending motions list.
Plaintiff has filed a motion for default judgment, Doc. No.
19, which appears to be unopposed and which remains
pending.
August 9, 2013
s/
Norah McCann King
Uhited'States'Magistrate'dudge

App. 65
As of: April 27, 2015 3:15 PM EDT
MCBROOM V. HR DIR. FRANKLIN COUNTY BD
OF ELECTIONS
United States District Court for the Southern Dist.
of Ohio, Eastern Division
March 18, 2013, Decided; March 21, 2013 Filed
Civil A2:12-cv-1074
Reporter
2013 U.S. Dist. LEXIS 39475
GRACIE E. MCBROOM, Plaintiff, vs. HR DIRECTOR
FRANKLIN COUNTY BOARD OF ELECTIONS,
Defendant.
Subsequent History: Motions ruled upon by McBroom
v. HR Dir. Franklin County Bd of Elections 2013 U.S. Dist.
LEXIS 116495 (S.D. Ohio. Dec. 4. 2012)
Core Terms
Recusal, bias, Default, judicial ruling
Counsel: {*1} Gracie E. McBroom, Plaintiff, Pro Se
Columbus, OH.
For HR Director Franklin County Board of Elections
Defendant: Jeffrey Charles Rogers, LEAD ATTORNEY,
Scott J. Gaugler, Franklin County Prosecutor’s Office,
Columbus, OH.
Judges: Norah McCann King, United States Magistrate
Judge. Judge Marbley.
Opinion by: Norah McCann King
OPINION ORDER
2013 U.S. Dist. LEXIS 39475
Plaintiff, who is proceeding in forma pauperis without the
assistance of counsel has filed a Motion for Recusal, Doc.
No. 21. Plaintiff bases her motion on the Court’s
“refusal[al] to act on the Default Judgment by already
arriving at an unfair conclusion about Plaintiffs case” and

App. 66
Defendant Franklin County of Elections to Plaintiff s
Complaint, Doc. No. 18. See Motion for Recusal, pp. 2-3.
Federal law requires a federal judicial officer to “disqualify
himself in any proceeding in which his impartiality might
reasonably be questioned.” 28 U.S.C. $ 455(a). The bias or
prejudice that mandates recusal, however, must be
wrongful or inappropriate, i.e., either relying on knowledge
acquired outside the proceedings or displaying deep-seated
and unequivocal antagonism that would render fair
judgment impossible. Litekv v. United States. 510 U.S.
540. 114 S. Ct. 1147. 127 L. Ed. 2d 474 (1994) U21 In this
regard, judicial rulings alone almost never constitute a
basis for recusal. Id. United States v. Grinnell Com.. 384
U.S. 563. 583. 86 S. Ct. 1698. 16 L. Ed. 2d 778 (1966).
First, Plaintiff s argument that the Court has failed “to act
on the Default Judgment” is without merit. Plaintiffs
motion for default judgment, Doc. No. 19, was filed on
March 13, 2013. That motion is not fully briefed, see S.D.
Ohio Civ. R. 7.2(a)(2) (permitting a memorandum in
opposition to be served within twenty-one (21) days from
the date of service of a motion), and a delay in ruling on the
motion does not suggest any bias on behalf of the Court.
Second, Plaintiffs argument is based on a judicial ruling
that simply does not manifest bias against any party in this
action. The Court ordered Plaintiffs Answer to Defendant’s
Answer of Board of Elections to Plaintiffs Complaint, Doc.
No. 18, stricken from the record because the “[t]he Federal
Rules of Civil Procedure do not.. . permit a response to an
answer.” Order Doc. No. 20 (citing Fed. R. Civ. P. 7(a)). The
Court’s reference and application of the Federal Rules of
Civil Procedure do not suggest any bias on behalf of the
Court.

App. 67
Accordingly, as it relates [*3] to the undersigned >
Plaintiffs Motion for Recusal, 21 is DENIED.
\

March 18, 2013
si Norah McCann King
As of: April 27, 2015 3:15 PM EDT

\J>

t

\

L-

App. 68
MCBROOM V. HR DIR. FRANKLIN COUNTY BD.
OF ELECTIONS
United States District for the Southern of Ohio,
Southern Division
December 4, 2012, Filed
CASE NO. 2:12-CV-1074
Reporter
2012 U.S. Dist. LEXIS 171827
GRACIE E. MCBROOM, Plaintiff v. HR DIRECTOR
FRANKLIN COUNTY BOARD OF ELECTIONS,
Defendant.
Subsequent History: Motion denied by McBroom v.
Dir. Franklin Countv Bd. of Elections. 2013. U.S.
Dist. LEXIS 39475 (S.D. Ohio. Mar. 18. 2013
Prior History: McBroom v. HR Dir. Franklin Bd. of
Elections. 2012 U.S. Dist. LEXIS 166353 (S.D Ohio
Nov. 21. 20121
Core Terms
Recommendation, de novo
Counsel: [*1] Gracie E. McBroom, Plaintiff, Pro Se,
Columbus, OH.
Judges: Algenon L. Marbley, United States District
Judge. MAGISTRATE JUDGE KING.
Opinion by: “sT
Algenon L. Marbley

HR

App. 69

OPINION
ORDER
Plaintiff asserts claims of race discrimination under
Title VII of the Civil Rights Act of 1964 U.S.C. §
2000e-5, and infliction of emotional distress. On
November 21, 2012, the United States Magistrate
Judge recommended that the claims against
Defendant Assistant Prosecuting Attorney Scott J.
Gaugler, who represented respondent in the
proceedings before the Ohio Civil Rights
Commission, be dismissed Order and Report and
Recommendation, Doc. No. 7. This matter is now
before the Court on Plaintiffs objections. Objection
Doc. No. 9. The Court will consider the matter de novo.
See U.S.C. §636(b); Fed. R. Civ. P.72(TA.
In recommending the dismissal of the claims
against Defendant Gaugler, the Magistrate
Judge noted that Plaintiff did not allege an
employment relationship between her and this
Defendant and that, indeed, the Complaint contains
no allegations whatsoever against this Defendant.
Plaintiffs objections do not address the reasoning
of the Magistrate Judge. Rather, Plaintiff - who
is proceeding without the assistance of counsel [*2]
—argues only that certain portions of the decision of
the Ohio Commission are inadmissible in this action.

App. 70
Because Plaintiffs Objection, Doc. 9, does not challenge
the recommendation of the Magistrate Judge, the
Report and Recommendation, Doc. No. 7, is
ADOPTED AND AFFIRMED.
The claims against defendant Gaugler are
DISMISSED, i
/s/
Algenon L. Marbley
United States District Judge

APPENDIX C

App. 71
IN THE COURT OF APPEALS OF OHIO TENTH
APPELLATE DISTRICT
Grade McBroom,
Plaintiff-Appellant,
No. 96APE01-53
(REGULAR CALENDAR)
v.
Franklin County Board of Elections,
Defendant-Appellee.

MEMORANDUM DECISION
Rendered on June 20, 1996
Grade McBroom, Pro Se.
Michael Miller, Prosecuting Attorney, and Harland Hale
APPEAL from the Franklin County Court of Common Pleas
DESHLER, J.
Plaintiff-appellant, Grade McBroom, appeals from a
decision of the Franklin County Court of Common Pleas
dismissing her action against defendant-appellee, Franklin
County Board of Election (“Board of Elections”), for failure
to state a claim under -Civ.R. 12(B)(6).
Appellant was employed for many years by the Board of
Elections as a poll-worker. For some thirteen years prior to
the November election of 1994, appellant worked as a
presiding judge at a polling place. Appellant’s complaint
WhiclTinitiate'dthis'action'inthe'court-of-eommiMi-^loas----states that she was “demoted” by the Board of Elections

App. 72

from presiding judge to judge assisting an incapacitated
voter, in this event her husband, to fill out an absentee
ballot. Appellant’s complaint states that the rules of the
Board of Election allow poll- workers to assist disabled or
incapacitated followed to ensure the propriety of the vote
cast. Appellant sought compensatory and punitive
damages in the amount of $2.1 million for her “demotion” at
the hands of the Board of Elections, based upon “character
assassination, humiliation, severe emotional stress and lost
[sic] in pay.”
The Board of Elections moved to dismiss appellant’s
complaint under Civ.R. (B) (6), asserting that appellant had
failed to state a claim for which relief could be granted
because she had no constitutional, statutory or common-law
right to be appointed as a presiding judge, rather than a
judge, by the Board of Elections. The trial court granted
the Board of Elections’ motion, pointing out that precinct
judges are appointed by the Board of Elections on an
annual basis under R.C. 3501.22, which paces no obligation
upon the Board of Elections to re-appoint prior year
appointees to these positions. The trial court noted that,
since appellant had no legal entitlement to appointment as
a presiding judge, or even a judge, under R.C. 3501.22, she
had failed to set forth an actionable claim against the
Board of Elections, and the complaint must be dismissed.
Appellant has timely appealed and states the following
“Question Presented,” which we shall treat as an
assignment of error for purposes of App .R. 16 (A) (3):
“The Board of Elections has not demoted any white
persons working in the capacity of a Presiding Judge for
assisting Afro-American incapacitated Voters. Why would
the Board of Elections single out one Afro-American to
Demotion from a Presiding Judge for assisting an AfroAmerican incapacitated voter?”

App. 73
In order for a court to dismiss a complaint for failure to
state a claim upon which relief could be granted, it
must appear “beyond doubt that the Plaintiff can prove
no set of facts in support of his claim which would entitle
him to relief.” O’Brien v. University Comm. Tenants
relief.” O’Brien Union, Inc. (1975), 42 Ohio St.2d 242, 245.
“|T]n construing a complaint upon a motion to dismiss for
failure to state a claim, we must presume that all factual
allegations of the complaint are true and make all
reasonable inference in favor of the nonmoving party.
Mitchell v. Lawson Milk Co. (1988), 40 Ohio St.3d 192.
Appointment of precinct judges and presiding judges is
governed by R.C. 3501.22, which at the time in question
provided as follows:
We agree with the conclusion of the trial court that the
broad latitude provided Board of Elections in making
appointments of precinct judges precludes any claim by
Appellant that she was in any way entitled to
reappointment to another annual term as presiding judge;
moreover, at the time in question, R.C. 3501.22 made
no mention at all of any distinct appointment
procedure for the position of presiding judge,
although the 1995 amendment to this statute does
provide for this position.
Although appellant’s assignment of error and
argument raises issues pertaining to an employment
discrimination claim under the provision of R.C.
4112.02 and 4112.99, based upon an adverse job
action motivated by impermissible reasons of race or
handicap, this theory was not pleaded in appellant’s

App. 74
complaint in the trial court and thus shall not be
considered in connection with this appeal. We
further note that the dismissal by the trial court is
without prejudice to refilling and both wrongful
termination and employment discrimination claims
may be raised upon refilling of a more effectively
worded complaint addressing these issues.
In accordance with the foregoing, we find that the
trial court did not err in dismissing appellant’s
complaint for failure to state a claim under Civ.R.
12(B)(6). Therefore, the judgment of the Franklin
County Court of Common Pleas is affirmed.
Judgment affirmed.

BOWMAN and CLOSE, JJ., Concur

/

APPENDIX D

)

/

App. 75
EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION/OHIO CIVIL RIGHTS COMMISSION
Franklin County Board of Elections
RESPONDENT_____________________ !_________
EEOC may be contacted at the following address(s):
Equal Employment Opportunity Commission
Cleveland Field Office - 532
AJCFB - 532
1240 East Ninth Street
Cleveland, OH 44199
(216) 522-2001
or
Equal Employment Opportunity Commission
525 Vine Street, #810
Cincinnati, Ohio 45202-3122
(513) 684-2851
FAX (513) 852-3357
PERSON FILING CHARGE
Grade E. McBroom
THIS PERSON (Check One)
[X] CLAIMS TO BE AGGRIEVED
1 1 IS FILING ON BEHALF OF ANOTHER
DATE OF ALLEGED VIOLATION
Earliest 12/22/11
PLACED OF ALLEGED VIOLATIONCitv. State. County
Columbus. OH Franklin
EEOC CHARGE NUMBER
FEPA CHARGE NUMBER
COL 71 (39104) 01122012
NOTICE OF CHARGE OF DISCRIMINATION IN
JURISDICTIONS WHERE AN FEP AGENCY WILL
INITIALLY PROGRESS

App. 76
(See EEOC “Rules and Regulations” for additional
information)
YOU ARE HEREBY NOTIFIED THAT A CHARGE OF
EMPLOYMENT DISCRIMINATION UNDER [X] Title
VII of the Civil Rights Act of 1964
HAS BEEN RECEIVED By
[X] The Ohio Civil Rights Commission (OCRC) and sent to
the EEOC for dual filing purposes. (FEP Agency)
EEOC has jurisdiction after the expiration of any deferral
requirement (Title VII or ADA charge) to investigate this
charge. EEOC may refrain from beginning an
investigation and await the issuance of OCRC’s findings
and orders. These final findings and orders will be given
weight by EEOC in making its own determination as to
whether or not reasonable cause exists to believe that the
allegations made in the charge are true.
You are encouraged to cooperate fully with OCRC. All
facts and evidence provided by you to OCRC in the course
of its proceedings will be considered by EEOC when it
reviews the OCRC’s final findings and orders. In many
instances, the EEOC will take no further action, thereby
avoiding the necessity of an investigation by both
agencies. This likelihood is increased by your active
cooperation with OCRC.
[X] As a party to the charge, you may request that EEOC
review the final decision and order of OCRC. For such a
request to be honored, you must notify EEOC in writing
within 15 days of your receipt of the OCRC’s final decision
and order. If OCRC or EEOC processes the charge, the
Record keeping and Non-Retaliation provides of the
statutes as explained in the “EEOC Rules and
Regulations” apply.

App. 77
For further correspondence of this matter, please use the
charge number(s) shown.
[X] Enclosure: Copy of Charge
BASIS OF DISCRIMINATION
[X] RACE
DATE January 11, 2012 Typed Name/Title of Authorized
OCRC Official
s/
Marcy Valenzuela
Director

App. 78
U.S. EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION
Indianapolis District Office
101 West Ohio Street
Suite 1900
Indianapolis, IN 46204
(317) 226-7212
TDD: 1-800-669-6820
FAX (317) 226-7953
1-800-669-4000
Respondent: FRANKLIN COUNTY BOARD OF
ELECTIONS
EEOC Charge No: 22A-2012-01034
FEPA Charge No.: COL71 (39104)
March 21, 2012
Grade E. McBroom
636 Koebel Aveneue
Columbus, Ohio 43207
Dear Ms. McBroom:
You recently filed a charge of employment discrimination
against the above-named respondent with the Ohio Civil
Rights Commission. The charge was dual-filed with the
EEOC, when you filed it with the agency, in order to
preserve your right to sue under Federal law. The agency
has sent a copy of the charge to us and it has been
assigned the above “EEOC Charge No.” Please use this
number whenever you contact this office. A copy of the
charge or notice of the charge will be sent to the
respondent within 10 days of our receipt of the chare in
this office.
The charge was filed under one or more of the following
laws.:
[X] Title VII of the Civil Rights Act of 1964 (Title VII).
Please cooperate with the agency named above as they
process this charge. The EEOC will not act on the charge
until the agency completes its proceedings. Their final
findings and orders may be adopted by the EEOC.

App. 79
They will investigate and resolve the charge under their
statute. Under section 1601.76 of our regulations, you
may ask us to perform a Substantial Weight Review of
their final finding. To obtain this review, a written
request must be made to this office within 15 days of
receipt of the agency’s final finding in the case.
Otherwise, we will generally adopt the agency’s finding.
The paragraph(s) checked below apply to this case:
[X] Under Title VII, the ADA and GINA, the EEOC must
issue a Notice of Right to Sue, either at your request or
after we act on the agency’s finding, before you may file
private suit under those laws.
[ ] You may file a private suit to enforce your rights
under the ADEA. An ADEA lawsuit may be filed at any
time 60 days after the charge is filed. The filing date for
this chare was. . There is no need to wait for EEOC or the
agency to complete action before filing suit. However,
please note the right to sue will expire 90 days after you
receive notice from EEOC that we have completed action
on the charge.
[ ] While Title VII requires the EEOC to issue a Notice
of Right to Sue to Sue before you may under that law an
EPA lawsuit may be brought immediately without
waiting for EEOC or the agency to complete action on the
charge. EPA suits must be brought within two years
(three years in cases of willful violations) or any alleged
underpayment. The earliest alleged date of violation cited
in this charge was:..
While your charge is pending, please notify us of any
change in your address, or where you can be reached if
you have any prolonged absence from home. Your
cooperation in this matter is essential.

App. 80
Sincerely,
s/
Webster N. Smith
District Director
(317) 226-6144
Office Hours: Monday - Friday, 8:30 a.m. - 5:00 p.m.
www.eeoc.gov
w

Enclosure (s)
Copy of Charge of Discrimination

V <

£

App. 81
EEOC Form 161 (11/09)
U.S. EQUAL EMPLOYMENT OPPORTUNITY
COMMISSION
DISMISSAL AND NOTICE OF RIGHTS
From: Indianapolis District
To: Grade E. McBroom
Office
636 Koebel Avenue
101 West Ohio St
Columbus, Ohio 43207
Suite 1900
Indianapolis, IN 46204
I 1 On behalf of person(s) aggrieved whose
1---- 1 Identity is CONFIDENTIAL (29 CFR § 1601.7
EEOC Charge No. EEOC Representative Telephone No.
22A-2012-01034 Ethel M. Harmon,
(317) 226-6144
State & Local Program Manager
THE EEOC IS CLOSING ITS FILE ON THIS CHARGE
FOR THE FOLLOWING REASON:

□

The facts alleged in the charge fail to state a claim
under any of the statutes enforced by the EEOC
[”"1 Your allegations did not involve a disability as
defined by the Americans With Disabilities Act.
r~\ The Respondent employs less than the required
*—number of employees or is not otherwise covered by
___ the statutes.
I I Your charge was not timely filed with EEOC, in
other words, you waited too long after the date(s) of
the alleged discrimination to file your charge.
The EEOC issues the following determination:
Based upon its investigation, the EEOC is unable to
conclude that the information obtained establishes
violations of the statutes. This does not certify that
the respondent is in compliance with the statutes.
No finding is made as to any other issues that
might be construed as having raised by this charge.

App. 82
|

I The EEOC has adopted the findings of the state or
local fair employment practices agency that
investigated this charge.

[71 Other (briefly state) No
Employer/employee
Relationship
NOTICE OF SUIT RIGHTS
(See the additional information attached to this form.)
Title VII, the Americans with Disabilities Act, the
Genetic Information Nondiscrimination Act, or the
Age Discrimination in Employment Act. This will
be the only notice of dismissal and of your right to
sue that we will send you. You may file a lawsuit
against the respondent(s) under federal law based
on this charge in federal or state court. Your
lawsuit must be filed WITHIN 90 DAYS of the
receipt of this notice; or your right to sue based on
this charge will be lost. (The time limit for filing
suit based on a claim under state law may be
different.)
Equal Pay Act (EPA): EPA suits must be filed in
federal or state court within 2 years (3 years for
willful violations) of the alleged EPA
underpayment. This means that back pay due for
any violations that occurred more than 2 years (3
years) before you file suit may not be collectible.
On behalf of the Commission
s/
Webster N. Smith,
Sep - 4 2012
District Director
(Date Mailed)

App. 83
Enclosures(s)
cc:

HR Director
Franklin County Board of Elections
280 East Broad Street
Room 100
Columbus, OH 43215

